No.

In the Supreme Court of the United States
___________
ROBERT HUFF, JUSTIN MOHNEY and JEFF BRENEMAN,
Petitioners,
v.
MICHELLE CHOATE, individually and on behalf of the
heirs of Deanne Choate and as Administrator of the
Estate of Deanne Choate,
Respondent.
___________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit
___________
Petition for a Writ of Certiorari
___________
David R. Cooper
Counsel of Record
Michael K. Seck
Andrew D. Holder
Fisher Patterson Sayler
& Smith LLP
3550 SW 5th Street
Topeka, Kansas 66606
(785) 232-7761
dcooper@fisherpatterson.com
Counsel for Petitioners

Questions Presented
Graham v. Connor commands an officer’s use of
force be assessed for reasonableness under the “totality of the circumstances.” 490 U.S. 386, 396 (1989) (internal quotation marks omitted). The circuits are split
as to whether an officer’s pre-seizure conduct should
be considered when evaluating the reasonableness of
the officer’s actions at the exact moment force was
used. The Tenth Circuit permits officers to be held liable under 42 U.S.C. § 1983 for pre-seizure conduct
that, in and of itself, does not violate the Fourth
Amendment if it is immediately connected with the
use of force and can be viewed to have “recklessly created” the need to use force. Conversely, the Fourth,
Seventh, and Eighth Circuits hold evidence of pre-seizure conduct is irrelevant to reasonableness under the
Fourth Amendment.
Question 1. Whether the Tenth Circuit’s “reckless
creation” theory, which imposes liability for the creation of the need to use force, should be barred because
it conflicts with Graham v. Connor regarding the manner in which a claim of excessive force against an officer should be determined and has been rejected by
other Courts of Appeals.
Question 2. Whether, if the “reckless creation” theory is upheld, the qualified immunity analysis must be
tailored to require a reviewing court to determine
whether every reasonable officer in the defendants’ position would have known that refraining from physically restraining an emotionally disturbed and/or intoxicated subject can result in constitutional liability
under the Fourth Amendment where the encounter results in a later need to use force.

ii
Question 3. Whether a Court of Appeals should rule
on the basis of a lack of a constitutional violation when
“a discussion of why the relevant facts do not violate
clearly established law may make it apparent that in
fact the relevant facts do not make out a constitutional
violation at all.”

iii
Parties to the Proceedings
Petitioners, Robert Huff, Justin Mohney, and Jeff
Breneman, were defendants–appellants in the court
below.
Respondent Michele Choate was the plaintiff–appellee in the court below.
The City of Gardner, Kansas, is not a party in this
Court but was a defendant in the district court below.
Corporate Disclosure Statement
There are no corporations involved in this proceeding.
List of Proceedings
United Stated District Court for the District of
Kansas, Case No. 16-CV-2118-JWL-GEB, Michelle
Choate, individually and on behalf of the heirs of
Deanne Choate and as Administrator of the Estate of
Deanne Choate, Plaintiff v. City of Gardner, Kansas,
Robert Huff, Justin Mohney and Jeff Breneman, Defendants, Order Appealed from Filed July 12, 2018.
Tenth Circuit Court of Appeals, Appeal No.
18-3157, Michelle Choate, individually and on behalf
of the heirs of Deanne Choate and as Administrator of
the Estate of Deanne Choate, Plaintiff/Appellee, v.
Robert Huff, Justin Mohney and Jeff Breneman, Defendants/Appellants, and City of Gardner, Kansas,
Defendant, Order and Judgment filed July 18, 2019,
Petition for Rehearing and Rehearing En Banc denied
August 14, 2019.

iv
Table of Contents
Questions Presented ..................................................... i
Parties to the Proceedings .......................................... iii
Corporate Disclosure Statement ................................ iii
List of Proceedings ...................................................... iii
Table of Contents ........................................................ iv
Table of Authorities ................................................... vii
Opinions Below ............................................................ 1
Jurisdiction .................................................................. 1
Constitutional & Statutory Provisions Involved ........ 1
Statement of the Case ................................................. 1
A. Factual background .......................................... 1
B. Procedural background ..................................... 3
Reasons to Grant the Petition ..................................... 5
A. The Tenth Circuit’s “reckless creation” theory of
liability
improperly
measures
the
reasonableness of a particular use of force under
the Fourth Amendment, it conflicts with this
Court’s precedent, and it conflicts with and has
been rejected by the majority of other Circuit
Courts of Appeal.............................................. 12

v
1. The Tenth Circuit’s “reckless creation”
theory contravenes Graham v. Connor and
allows imposition of liability under § 1983 for
uses of force that are objectively reasonable
under the Fourth Amendment. ................. 13
2. The Tenth Circuit’s “reckless creation”
theory conflicts with, and has been rejected
by, the approach followed by the majority of
other circuits. ............................................. 16
3. The “reckless creation” theory puts the lives
of officers at risk and encourages physical
restraint of persons for fear an escalation of
a police-citizen encounter will result in the
need to use force. ....................................... 23
B. Officers Huff and Mohney are entitled to
qualified immunity under the “reckless
creation” theory unless every reasonable officer
would have known the officer’s pre-seizure
conduct would result in the need to use force
under the specific facts of the case. ................ 26
C. Officer Breneman did not violate the Fourth
Amendment and judgment should be entered
for him on that basis. ...................................... 28
Conclusion .................................................................. 29
Appendix A — Court of appeals opinion (Jul. 18, 2019)
............................................................................... 1a
Appendix B — District court memorandum and order
(July 12, 2018) ...................................................... 9a

vi
Appendix C — Order denying rehearing (Aug. 14,
2019).................................................................... 26a

vii
Table of Authorities
Cases
Allen v. Muskogee, 119 F.3d 837 (10th Cir. 1997) ... 11,
15

Anderson v. Creighton, 483 U.S. 635 (1987) ............ 26
Ashcroft v. al-Kidd, 563 U.S. 731 (2011)............. 23, 26
Billington v. Smith, 292 F.3d 1177 (9th Cir. 2002),
abrogated by Cty. of Los Angeles, Calif. v.
Mendez, 137 S.Ct. 1539 (2017) ....................... 21
Brower v. County of Inyo, 489 U.S. 593 (1989) ........ 13
California v. Hodari D., 499 U.S. 621 (1991) ............ 15
Carter v. Buscher, 973 F.2d 1328 (7th Cir. 1992) .... 20
City & Cty. of San Francisco, Calif. v. Sheehan 135
S.Ct. 1765 (2015) ................................... 6, 13, 15

Claybrook v. Birchwell, 274 F.3d 1098 (6th Cir. 2001)
......................................................................... 19

Cole v. Bone, 993 F.2d 1328 (8th Cir. 1993) ............. 20
Collins v. Virginia, 138 S.Ct. 1663 (2018)................. 23
County of Los Angeles v. Mendez, 137 S.Ct. 1539
(2017) ..................................... 6, 8, 13, 14, 16, 23

Daniels v. Williams, 474 U.S. 327 (1986) ................. 13

viii

Dickerson v. McClellan, 101 F.3d 1151 (6th Cir. 1996)
........................................................................... 8

Drewitt v. Pratt, 999 F.2d 774 (4th Cir. 1993) ......... 18
Fraire v. Arlington, 957 F.2d 1268 (5th Cir. 1992), cert.
denied 506 U.S. 973 (1992) ......................... 8, 18
George v. Morris, 736 F.3d 829 (9th Cir. 2013) ........ 21
Graham v. Connor, 490 U.S. 386 (1989) .......................
................................... 6, 7, 12, 13, 15, 16, 24, 25

Greenidge v. Ruffin, 927 F.2d 789 (4th Cir. 1991) .......
..................................................................... 8, 18

Livermore ex rel Rohm v. Lubelan, 476 F.3d 397 (6th
Cir. 2007) ..................................................... 8, 19

Medina v. Cram, 252 F.3d 1124 (10th Cir. 2001) ..... 22
Menuel v. City of Atlanta, 25 F.3d 990 (11th Cir. 1994)
..................................................................... 9, 20

Michigan v. Long, 463 U.S. 1032 (1983) ................... 23
Pauly v. White, 874 F.3d 1197 (10th Cir. 2017) cert.
denied, 138 S.Ct. 2650 (2018) ............. 17, 20, 21
Pearson v. Callahan, 555 U.S. 223 (2009) ................ 12
Plakas v. Drinski, 19 F.3d 1143 (7th Cir. 1994), cert.
denied, 513 U.S. 820 (1994) ........................ 8, 20
Reichle v. Howards, 132 S.Ct. 2088 (2012) ............... 26

ix

Rockwell v. Brown, 664 F.3d 985 (5th Cir. 2011), cert.
denied, 566 U.S. 1009 (2012) ...................... 8, 18
Salim v. Proulx, 93 F.3d 86 (2d Cir. 1996)...... 8, 17, 18
Saucier v. Katz, 533 U.S. 194 (2001) ........................ 26
Schulz v. Long, 44 F.3d 643 (8th Cir. 1995) ......... 8, 20
Sevier v. City of Lawrence, Kan., 60 F.3d 695 (10th
Cir. 1995) ................................................... 11, 15

Tennessee v. Garner, 471 U.S. 1 (1985) .................... 13
Terebesi v. Torreso, 764 F.3d 217 (2d Cir. 2014)........ 8
Waterman v. Batton, 393 F.3d 471 (4th Cir. 2005) ... 8,
18

White v. Pauly, 137 S.Ct. 548 (2017) ........................ 27
Young v. City of Providence, 404 F.3d 4 (1st Cir. 2005)
......................................................................... 21
Statutes
42 U.S.C. § 1983........................................................... 1

1
Opinions Below
The opinion of the court of appeals (Pet. App. 1a–
8a) is not reported but is available at 2019 WL
3228928. The district court’s Memorandum and Order
(Pet. App. 9a–17a) is unpublished but is available at
2018 WL 3389871.
Jurisdiction
The judgment of the court of appeals was entered
on July 18, 2019. A petition for rehearing was denied
on August 14, 2019 (Pet. App. 26a). This Court’s jurisdiction rests on 28 U.S.C. § 1254(1).
Constitutional & Statutory Provisions Involved
Respondent claims Petitioners violated rights under the Fourth Amendment to the United States Constitution which provides: “The right of the people to be
secure in their persons … against unreasonable
searches and seizures shall not be violated.”
This action was brought pursuant to 42 U.S.C.
§ 1983 which states:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State … subjects, or causes to be subjected, any
citizen of the United States or other person
within the jurisdiction thereof to the deprivation of any rights, privileges, or immunities secured by the Constitution and laws, shall be liable to the party injured in an action at law.
Statement of the Case
A. Factual background
Petitioners are police officers; Respondent Michele
Choate is the heir and personal representative of the

2
estate of decedent Deanne Choate. Pet. App. 9a. On
March 26, 2015, Petitioners and other officers for the
City of Gardner, Kansas responded to a 911 call made
by Ms. Choate’s boyfriend. The boyfriend told dispatch that Ms. Choate had been drinking, had fired a
gun, and was possibly suicidal. Upon arrival at the residence, the officers removed the boyfriend from the
house and located Ms. Choate lying naked in bed. Id.
at 9a–10a. Officers made no attempt to restrain Ms.
Choate or to remove her from the bed, apparently out
of concern she was nude. Id. at 2a, 15a. The officers
correctly suspected Ms. Choate had a gun under the
covers of the bed. Id. at 2a.
Officer Breneman acted as lead officer during the
encounter with Ms. Choate. Id. Breneman and other
officers repeatedly asked about Ms. Choate’s gun and
its location. Id. at 10a, 15a. After more than four
minutes, in response to officers’ continued questions
about the firearm, Ms. Choate stated, “It’s right here.”
Within a few seconds of this statement, Officer Huff
and Officer Mohney discharged their weapons, killing
Ms. Choate. Id. at 2a–3a. Both Officer Huff and Officer
Mohney testified they saw Ms. Choate pointing a gun
at Officer Mohney before shooting. Id. at 13a.
The district court concluded a reasonable jury could
disbelieve the testimony of Officers Huff and Mohney
that Ms. Choate pointed a gun at them and could, instead, find she did not remove her gun from beneath
the covers and the officers instead reacted to her statement about the gun. Id. at 3a, 13a–14a.
Officer Breneman, who had the most contact with
Ms. Choate prior to the shooting, did not shoot nor did
he direct the other officers to shoot. Id. 3a, 15a. Prior

3
to the shooting, Officer Breneman wrestled briefly
with Ms. Choate and felt what he believed to be a
weapon under the covers. Id. at 13a. After the shooting, the gun was found under the covers by Ms. Choate’s knee. Id.
B. Procedural background
1. Respondent sued Petitioners and the City of
Gardner, Kansas under 42 U.S.C. § 1983 asserting Petitioners used excessive force against Ms. Choate in violation of the Fourth Amendment. Pet. App. 11a.
All defendants (including the City) moved for summary judgment and Petitioners asserted the defense of
qualified immunity. Id. at 9a, 11a–12a. The district
court denied qualified immunity to all of the officer Petitioners on the separate bases of:
a. A remaining question of fact as to whether Ms.
Choate actually pointed a gun (as opposed to
whether the officers reasonably perceived that
she did so), id. at 13a–14a;
b. Even if Officers Huff and Mohney acted reasonably at the exact moment of the shooting, a jury
could nonetheless conclude they recklessly created the need to use force by failing to take
physical control of Ms. Choate while she sat in
bed with her empty hands above the covers, before she produced any gun, despite each suspecting she had a gun and, thus, acted unreasonably in the totality of the circumstances, id.
at 15a–16a; and
c. Officer Breneman could be held liable despite
the fact he did not shoot Ms. Choate, based on

4
Plaintiff’s claim that Officer Breneman recklessly created the need for Officers Huff and
Mohney to use deadly force, and could be liable
under § 1983 under a “reckless creation” theory.
Id. at 16a.
Petitioners appealed the denial of qualified immunity to the United States Court of Appeals for the Tenth
Circuit.
2. The Tenth Circuit rejected the challenge by Officers Huff and Mohney to the district court’s decision
in which they argued they were entitled to qualified
immunity because they reasonably perceived and believed Ms. Choate was pointing a firearm at them. Pet.
App. at 3a. The court held the video of the events did
not blatantly contradict the version of events the district court held could be credited by a reasonable jury.
Id. The court concluded the arguments of Officers Huff
and Mohney were premised on factual allegations outside the facts the district court held could be found by
a reasonable jury and deprived the court of interlocutory jurisdiction over their appeal. Id. at 4a.
The Tenth Circuit agreed, however, it had jurisdiction over Officer Breneman’s appeal that raised an abstract legal question as to whether the facts identified
by the district court demonstrated a violation of law
that was clearly established at the time of the alleged
violation. Id. The court found there was no case holding an officer who used no force whatever could be liable under § 1983 for another officer’s use of force where
the use of force was sudden, unannounced, and short
in duration. Id. at 6a. The court noted there was no
case that would put reasonable officers on notice that

5
they needed to handcuff or otherwise restrain Ms. Choate, rather than try to communicate with her, to avoid
violating her right to be free from excessive force. Id.
at 7a.
Concluding Officer Breneman was entitled to qualified immunity, the court noted a lack of “any cases
holding that an officer violates an individual’s constitutional right to be free from excessive force simply by
failing to restrain her or to engage in the dialogue that
a defense expert, with the benefit of hindsight, believes
might have prevented” a subsequent and unannounced use of force. Id. at 7a–8a.
Reasons to Grant the Petition
This case presents questions of whether law enforcement officers may be liable for damages under
§ 1983 for shooting an emotionally disturbed and/or intoxicated person, even if the shooting is objectively
reasonable at the exact moment of the shooting, if a
jury could conclude that bad tactics or failure to adhere
to police procedure “recklessly created” the later need
to use deadly force.
The Tenth Circuit reached inconsistent, and opposing, conclusions on the same issue. The district court
held the law clearly established Officers Huff and
Mohney could be liable under § 1983 on the “reckless
creation” theory. That is, they can be liable even if the
jury concludes they “acted reasonably at the exact moment of the shooting” if the jury also concludes their
failure to take physical control of Ms. Choate at some
point prior to the shooting amounted to recklessness
creating the need to eventually use force. Pet. App.
15a–16a. The court concluded Officers Huff and
Mohney did not present an abstract question of law

6
giving rise to interlocutory appellate jurisdiction. Id.
at 4a. Conversely, the Tenth Circuit held Officer
Breneman, who had the most contact with Ms. Choate
prior to the shooting but did not shoot nor did he direct
the other officers to shoot, was entitled to qualified immunity under the “reckless creation” theory. Id. 3a, 8a.
The decisions by the lower courts in this matter allow officers to be liable under § 1983 if events evolve
into a use of force that may have been avoided, even
though use of the force is objectively reasonable at the
exact moment of the force is used. These decisions conflict with this Court’s decisions in Graham v. Connor,
490 U.S. 386 (1989), County of Los Angeles v. Mendez,
137 S.Ct. 1539, 1547 n.* (2017), and City & Cty. of San
Francisco, Calif. v. Sheehan 135 S.Ct. 1765, 1777
(2015).
The Fourth Amendment is not violated by a chain
of events in which an officer’s decisions, actions and/or
inactions in not seizing and handcuffing a subject are
followed by an otherwise reasonable use of force that
may have been avoided had the officer made a different decision or action/inaction. See Mendez, 137 S.Ct.
at 1547 (“An excessive force claim is a claim that a law
enforcement officer carried out an unreasonable seizure through a use of force that was not justified under
the relevant circumstances. It is not a claim that an
officer used reasonable force after committing a distinct Fourth Amendment violation such as an unreasonable entry.”). The Tenth Circuit’s “reckless creation” theory allows imposition of civil liability under
§ 1983 for a seizure/use of force which, in isolation, is
objectively reasonable under the Fourth Amendment.
An otherwise reasonable use of force results in civil li-

7
ability if the trier of fact concludes prior action or inaction of the officer, which did not amount to a seizure
under the Fourth Amendment, may be viewed to have
“recklessly created” the need to use force. This Court
has never approved the “reckless creation” theory and
Courts of Appeals should not be permitted to circumvent this Court’s precedent regarding the evaluation
of claims of unreasonable seizure/excessive force. An
officer cannot be liable under § 1983 for a use of force
that was reasonable under the Fourth Amendment at
the moment force was used.
In Graham v. Connor, this Court held reasonableness is measured at the moment force is applied, and
accounts for the fact that officers must make split-second judgments in circumstances that are tense, uncertain, and rapidly evolving. 490 U.S. at 396–97.
1. Review is necessary because the Tenth Circuit’s
“reckless creation” theory allows civil liability against
officers under § 1983 in conflict with the settled and
exclusive framework for analyzing the force used in
making a seizure under the Fourth Amendment. The
theory considers police conduct which does not amount
to a seizure under the Fourth Amendment, prior to the
use of force, that created the need to use it. This is a
substantial question of federal law which should be,
but has not yet been, settled by this Court. The theory
imposes civil liability under § 1983 for an officer’s use
of force that was, at the moment it was used, objectively reasonable and thus, did not violate the Fourth
Amendment under Graham. The theory nevertheless
imposes liability if the officer’s conduct, which does not
itself amount to a seizure, “recklessly created” the
later need to use force.

8
This Court, in County of Los Angeles v. Mendez,
noted this very issue but did not grant certiorari on the
question and declined to address it there. 137 S.Ct. at
1547 n*. This case presents an appropriate vehicle to
address the propriety of considering pre-seizure conduct when assessing the reasonableness of a particular
seizure/use of force under the Fourth Amendment.
The Tenth Circuit’s “reckless creation” theory has
never been approved by this Court and has been rejected by the majority of the other circuits. This Court,
in Mendez, rejected the Ninth Circuit’s “provocation”
doctrine, which is a cousin of the “reckless creation”
theory. Moreover, the Second, Fourth, Fifth, Sixth,
Seventh, Eighth, and Eleventh Circuits have each rejected the notion that the reasonableness of a particular seizure/use of force is judged by pre-seizure conduct
because Graham held reasonableness is measured at
the moment force is applied and allows for the fact that
officers must make split-second judgments in circumstances that are tense, uncertain, and rapidly evolving
without the benefit of hindsight or time for reflection
in the comfort of a judge’s chambers. See Terebesi v.
Torreso, 764 F.3d 217, 235 n.16 (2d Cir. 2014); Salim
v. Proulx, 93 F.3d 86, 92 (2d Cir. 1996); Waterman v.
Batton, 393 F.3d 471, 477 (4th Cir. 2005); Greenidge v.
Ruffin, 927 F.2d 789 (4th Cir. 1991); Rockwell v.
Brown, 664 F.3d 985, 992 (5th Cir. 2011), cert. denied,
566 U.S. 1009 (2012); Fraire v. Arlington, 957 F.2d
1268 (5th Cir. 1992), cert. denied 506 U.S. 973 (1992);
Livermore ex rel Rohm v. Lubelan, 476 F.3d 397 (6th
Cir. 2007); Dickerson v. McClellan, 101 F.3d 1151,
1161 (6th Cir. 1996); Plakas v. Drinski, 19 F.3d 1143,
1150 (7th Cir. 1994), cert. denied, 513 U.S. 820 (1994);
Schulz v. Long, 44 F.3d 643 (8th Cir. 1995); and

9
Menuel v. City of Atlanta, 25 F.3d 990, 997 (11th Cir.
1994).
2. If the “reckless creation” theory is upheld, review
is still necessary to decide whether an officer’s entitlement to qualified immunity should include a determination by the reviewing court that the law is clearly
established such that every reasonable officer in the
position of the defendants would have known the officer’s inaction in failing to physically secure an emotionally disturbed and/or intoxicated person so as to
create the need to later use deadly force, would constitute a violation of the Fourth Amendment under the
specific circumstances confronting the officer. This is
the conduct the district court found could form the basis for liability even if the fact finder concluded the
force itself was reasonable at the moment it was used.
This Court should resolve the important federal question of how qualified immunity should be analyzed in
a case where a plaintiff seeks to hold an officer liable
under the “reckless creation” theory. This is especially
true because, under the “reckless creation” theory, it is
not the actual seizure or use of force upon which liability rests. Rather, it is the road not taken (here, not
physically controlling Ms. Choate upon entry into her
bedroom) that amounts to a Fourth Amendment violation.
In its decision, the Tenth Circuit held Officer
Breneman was entitled to qualified immunity because
no case clearly established liability for the ultimate
use of force due to his “failure” to physically secure Ms.
Choate at some point prior to the shooting. Despite the
lack of any question of fact regarding the “reckless cre-

10
ation” theory, the Tenth Circuit concluded it lacked jurisdiction over the appeal by Officers Huff and Breneman.
The district court held a reasonable jury could impose liability under § 1983 on two alternate theories:
(1) by finding Ms. Choate did not point a gun at the
officers prior to the shooting; or (2) even if the shooting
was reasonable at the moment force was used, liability
could be imposed if the jury concluded the officers’
“reckless” failure to physically secure Ms. Choate unreasonably created the need to use force. Pet. App. 7a–
8a.
The Tenth Circuit concluded it lacked jurisdiction
over the appeal by Officers Huff and Mohney notwithstanding the absence of any fact dispute on the second,
“reckless creation” theory of liability. Officers Huff and
Mohney acknowledge the question of fact identified by
the district court (whether Ms. Choate in fact pointed
a gun at Officer Mohney prior to the shooting) must be
resolved by a jury trial. All three officers contend the
“reckless creation” theory premised on pre-seizure conduct that, itself, does not violate the Fourth Amendment does not state a violation of the Constitution or
laws of the United States under § 1983. Officers Huff
and Mohney further contend that, even if the theory
were to be recognized by this Court, they are entitled
to qualified immunity because no case clearly establishes that an officer’s failure to physically secure an
emotionally disturbed/intoxicated person lying naked
in bed would recklessly create the need to use deadly
force in violation of the Fourth Amendment.
No factual dispute deprived the Tenth Circuit of jurisdiction to address the qualified immunity defense as

11
to the “reckless creation” theory. When analyzing qualified immunity, the law must be clearly established
such that every reasonable officer would have known
the specific conduct—here, that refraining from physically controlling an emotionally disturbed and/or intoxicated person—will violate the Constitution if the
encounter escalates and results in the use of deadly
force, even if deadly force is otherwise justified at the
time it is employed.
The Tenth Circuit cases the district court relied
upon, Sevier v. City of Lawrence, Kan., 60 F.3d 695
(10th Cir. 1995) and Allen v. Muskogee, 119 F.3d 837
(10th Cir. 1997), Pet. App. 14a, do not clearly establish
that inaction when dealing with emotionally disturbed/intoxicated persons will violate the Fourth
Amendment’s proscription against unreasonable seizures and result in liability under § 1983. This Court
has not approved the “reckless creation” theory for imposing liability where the use of force is, at the moment
used, reasonable under the Fourth Amendment. Thus,
the parameters of the theory and the circumstances
under which qualified immunity may be denied are far
from established. In this regard, Officers Huff and
Mohney should have been afforded qualified immunity
from liability under the “reckless creation” theory.
3. Review is further warranted to determine
whether Officer Breneman, who did not shoot or use
force, violated the Fourth Amendment by refraining
from physically controlling Ms. Choate by handcuffing
or otherwise restraining her upon his entry into her
bedroom, thereby preventing events from evolving into
the eventual use of deadly force by Officers Huff and
Monhney. The district court held Officer Breneman’s

12
failure to restrain Ms. Choate could amount to personal participation in a constitutional violation notwithstanding the fact he did not seize Ms. Choate or
use any force whatever. Pet. App. 16a. The Tenth Circuit reversed, not because Officer Breneman did not
violate Ms. Choate’s constitutional rights, but rather
because no case was sufficiently similar to put an officer on notice of that his particular conduct violated
the Fourth Amendment in the specific context of this
case. Pet. App. 6a. While focusing solely on the “clearly
established” prong of the qualified immunity inquiry
is not improper, this is one of the cases to which this
Court alluded in Pearson v. Callahan when saying “a
discussion of why the relevant facts do not violate
clearly established law may make it apparent that in
fact the relevant facts do not make out a constitutional
violation at all.” 555 U.S. 223, 236 (2009). Officer
Breneman is branded with the unwarranted stigma of
an inference his conduct violated someone’s constitutional rights but merely in a manner that was not
clearly established.
A.

The Tenth Circuit’s “reckless creation” theory of liability improperly measures the reasonableness of a particular use of force under the Fourth Amendment, it conflicts with
this Court’s precedent, and it conflicts with
and has been rejected by the majority of
other Circuit Courts of Appeal.

Graham v. Connor, 490 U.S. 386, does not permit
officers to be held liable under the Fourth Amendment
for their pre-seizure conduct that does not itself violate
the Constitution.

13
1. The Tenth Circuit’s “reckless creation”
theory contravenes Graham v. Connor and
allows imposition of liability under § 1983
for uses of force that are objectively reasonable under the Fourth Amendment.
The use of deadly force is constitutionally permissible if “the officer has probable cause to believe that
the suspect poses a threat of serious physical harm, either to the officer or to others … .” Tennessee v. Garner,
471 U.S. 1, 11 (1985). Reasonableness under the
Fourth Amendment is not synonymous with the “reasonable care” standard under tort law. Daniels v. Williams, 474 U.S. 327, 332–33 (1986) (distinguishing
constitutional deprivations from injuries caused by a
lack of due care). A Fourth Amendment seizure occurs
“only when there is a governmental termination of
freedom of movement through means intentionally applied.” Brower v. County of Inyo, 489 U.S. 593, 596–97
(1989) (emphasis in original). Injuries caused by “governmental negligence are not addressed by the United
States Constitution,” therefore, negligent acts do not
incur constitutional liability. Daniels, 474 U.S. at 333.
Nothing done by any of the Petitioners preceding
the shooting—entering the home, entering the bedroom, refraining from seizing and handcuffing Ms.
Choate, urging her to dress, asking the location of the
gun—violated Ms. Choate’s constitutional rights.
The Tenth Circuit’s “reckless creation” theory cannot stand in light of this Court’s decisions in Graham,
490 U.S. 396–97, Mendez, 137 S.Ct. at 1546–47, and
Sheehan, 135 S.Ct. at 1777 (even if officers had mis-

14
judged, Fourth Amendment violation is not established based merely on bad tactics that result in a
deadly confrontation that could have been avoided).
In Mendez, this Court rejected the Ninth Circuit’s
“provocation rule,” which permitted an excessive force
claim under the Fourth Amendment where an officer’s
otherwise reasonable use of force was the result of an
“‘officer intentionally or recklessly provok[ing] a violent confrontation, if the provocation is an independent Fourth Amendment violation’” such that some separate Fourth Amendment violation in the course of
events leading up to the use of force may “‘render the
officer’s otherwise reasonable defensive use of force unreasonable as a matter of law.’” 137 S.Ct. at 1546
(quoting Billington v. Smith, 292 F.3d 1177, 1189,
1190–91 (9th Cir. 2002)) (emphasis in original). The
Mendez court said:
“Excessive force claims … are evaluated for objective reasonableness based upon the information the officers had when the conduct occurred.” [Saucier, 533 U.S. at 207]. That inquiry
is dispositive: When an officer carries out a seizure that is reasonable, taking into account all
relevant circumstances, there is no valid excessive force claim.
The basic problem with the provocation rule is
that it fails to stop there. Instead, the rule provides a novel and unsupported path to liability
in cases in which the use of force was reasonable.
Id. at 1546–47.
In Sheehan, this Court observed:

15
[E]ven if [officers] misjudged the situation,
[plaintiff] cannot “establish a Fourth Amendment violation based merely on bad tactics that
result in a deadly confrontation that could have
been avoided.” [Billington v. Smith, 292 F.3d
1177, 1190 (9th Cir. 2002) (Graber, J., concurring in part and dissenting in part), abrogated
by Cty. of Los Angeles, Calif. v. Mendez, 137
S.Ct. 1539 (2017)] Courts must not judge officers with “the 20/20 vision of hindsight.” Ibid.
(quoting Graham, 490 U.S., at 396).
135 S.Ct. at 1777.
The Tenth Circuit’s “reckless creation” theory, derived from Sevier and Allen must be read in light of the
admonition in Graham that courts must judge the
“reasonableness of a particular use of force … from the
perspective of a reasonable officer on the scene, rather
than with the 20/20 vision of hindsight.” 490 U.S. at
396. Sevier and Allen hold the court is to “consider an
officer’s conduct prior to the suspect’s threat of force if
the conduct is ‘immediately connected’ to the suspect’s
threat of force.” Allen, 119 F.3d at 840; Sevier, 60 F.3d
at 701 (“whether the officers precipitated the use of
deadly force by their own actions during the course of
the encounter immediately prior to the shooting”). The
“reckless creation” theory improperly engrafts tort law
onto Graham and the Fourth Amendment so as to impose liability under § 1983 in the absence of an unreasonable seizure. Ms. Choate had not submitted to any
show of authority and was not seized until the shooting. See, e.g., California v. Hodari D., 499 U.S. 621,
625–26 (1991) (no seizure occurs absent application of
physical force or a show of authority to which the subject yields).

16
Ironically, the “reckless creation” theory as applied
in this case, ignores the very facts in Graham. Mr. Graham was left unsecured in a car while an officer investigated what, if anything, was amiss in a convenience
store after seeing Mr. Graham run from the store
while experiencing a “sugar reaction” caused by his diabetes. While unsecured, Mr. Graham acted erratically which led to an eventual use of force and resulting injuries which likely would have been avoided had
Mr. Graham been physically restrained while the officer investigated the circumstances. 490 U.S. at 389–
90.
The “reckless creation” theory in the Tenth Circuit
suffers the same infirmity as did the Ninth Circuit’s
provocation rule in Mendez. It provides a novel and unsupported path to liability under § 1983 where the use
of force is itself objectively reasonable. In Mendez, this
court recognized an excessive force claim could not be
premised on the use of reasonable force after an officer
commits a distinct Fourth Amendment violation. 137
S.Ct. at 1547. The “reckless creation” theory takes
matters to an even more impermissible extreme by
permitting liability even when the conduct that precedes the eventual use of force does not violate the
Fourth Amendment. The “reckless creation” theory
should not survive Graham itself. It certainly does not
survive Sheehen and Mendez.
2. The Tenth Circuit’s “reckless creation”
theory conflicts with, and has been rejected by, the approach followed by the
majority of other circuits.
The Tenth Circuit acknowledged “the concept that
pre-seizure conduct should be used in evaluating the

17
reasonableness of an officer’s actions is not universally
held among other circuits” and had been outright rejected by the Fourth, Seventh, and Eighth Circuits.
Pauly v. White, 874 F.3d 1197, 1220 n.7 (10th Cir.
2017) cert. denied, 138 S.Ct. 2650 (2018) (citing Schulz
v. Long, 44 F.3d 643 (8th Cir. 1995) (holding that evidence of pre-seizure conduct was irrelevant to reasonableness); Cole v. Bone, 993 F.2d 1328, 1333 (8th Cir.
1993) (same); Carter v. Buscher, 973 F.2d 1328, 1332
(7th Cir. 1992) (same); Greenidge v. Ruffin, 927 F.2d
789, 792 (4th Cir. 1991) (same)).
The Second Circuit addressed and rejected a claim
that an officer could be liable under § 1983 “because he
created a situation in which the use of deadly force became necessary.” Salim v. Proulx, 93 F.3d 86, 92 (2d
Cir. 1996). In Salim, “at the moment [the defendant
officer] fired his weapon, [the decedent] was actively
resisting arrest, and [the officer] was being pummelled
by more than five people.” Id. at 91. The plaintiff asserted the officer could nonetheless be held liable under § 1983 “for using excessive force because he created
a situation in which the use of deadly force became
necessary” on the basis of “various violations of police
procedure, such as failing to carry a radio or call for
back-up, and also for failing to disengage when the
other children entered the fray.” Id. at 92. The Second
Circuit rejected the claim, noting
[A]ctions leading up to the shooting are irrelevant to the objective reasonableness of his conduct at the moment he decided to employ deadly
force. The reasonableness inquiry depends only
upon the officer’s knowledge of circumstances
immediately prior to and at the moment that he
made the split-second decision to employ deadly

18
force.
Id. (citing Schulz v. Long, 44 F.3d at 649 (“[E]vidence
that [the officers] created the need to use [deadly] force
by their actions prior to the moment of seizure is irrelevant … .”), Fraire v. City of Arlington, 957 F.2d 1268,
1275–76 (5th Cir. 1992) (same); Carter v. Buscher, 973
F.2d at 1332; Greenidge v. Ruffin, 927 F.2d at 792).
In Greenidge v. Ruffin, the Fourth Circuit also adhered to Graham’s emphasis that reasonableness
means the “standard of reasonableness at the moment”
when an officer makes the “split-second” judgment.
927 F.2d at 791–92 (quoting Graham, 490 U.S. at 396).
Greenidge rejected a claim that, when determining the
reasonableness of a particular use of force, “the chain
of events ought to be traced backward to the officer's
misconduct of failing to comply with the standard police procedures” for the particular encounter. Id. at
792. See also Waterman v. Batton, 393 F.3d 471, 477
(4th Cir. 2005) (“the reasonableness of the officer’s actions in creating the dangerous situation is not relevant to the Fourth Amendment analysis”); Drewitt v.
Pratt, 999 F.2d 774, 779–80 (4th Cir. 1993) (the failure
to follow police procedure “is irrelevant to the issue of
whether at the moment of the shooting [the officer]
had probable cause to believe [the suspect] posed a
threat of death or serious bodily harm to him.”).
In Fraire, the Fifth Circuit rejected a claim that an
officer’s use of deadly force to defend himself from attack was excessive because the officer failed to follow
established police procedures and “thereby manufactured the circumstances that gave rise to the fatal
shooting.” 957 F.2d at 1275–76. Similarly, in Rockwell
v. Brown, 664 F.3d 985 (5th Cir. 2011), cert. denied,

19
566 U.S. 1009 (2012), the Fifth Circuit again rejected
an argument that an officer’s use of force was unreasonable after a forced entry led to the fatal shooting
because inquiry is confined to whether the officer was
in danger at the moment of the threat that resulted in
the officer’s use of deadly force. Id. at 992–93.
In Livermore ex rel Rohm v. Lubelan, 476 F.3d 397
(6th Cir. 2007), the Sixth Circuit also addressed a
claim under § 1983 that an officer “intentionally or
recklessly created the circumstances leading to” a use
of deadly force. 476 F.3d at 406. The plaintiff asserted
a claim that tactical decisions implemented prior to
the use of deadly force recklessly created the circumstances that required the use of deadly force. The Sixth
Circuit addressed and rejected the concept that a
“Fourth Amendment claim against police officers who
used deadly force may survive summary judgment,
even where the particular seizure is reasonable, if the
defendant police officers acted recklessly in creating
the circumstances which required the use of deadly
force.” Id.
The Sixth Circuit observed the “proper approach”
views “excessive force claims in segments whereby the
court identifies the seizure at issue and “then examine[s] ‘whether the force used to effect that seizure was
reasonable in the totality of the circumstances, not
whether it was reasonable for the police to create the
circumstances.’” Id. (quoting Dickerson v. McClellan,
101 F.3d 1151, 1161 (6th Cir. 1996), and citing Gaddis
v. Redford Twp., 364 F.3d 763, 772 (6th Cir. 2004)). See
also Claybrook v. Birchwell, 274 F.3d 1098, 1104 (6th
Cir. 2001) (the Sixth Circuit’s “segmenting” analysis
requires the use of deadly force to be determined separately from prior actions taken by the officers).

20
The Seventh Circuit adheres to Graham’s rule requiring the use of force be judged on its own terms to
see if the officer acted reasonably at each stage. See
Plakas v. Drinski, 19 F.3d 1143, 1150 (7th Cir. 1994),
cert. denied, 513 U.S. 820 (1994). The Plakas decision
observed that courts “do not return to the prior segments of the event and, in light of hindsight, reconsider whether the prior police decisions were correct”
because hindsight, lengthy reflection and reconsideration “will nearly always reveal that something different could have been done … .” Id. See also Carter v.
Buscher, 973 F.2d 1328, 1332 (7th Cir. 1992) (the
Fourth Amendment prevents unreasonable seizures,
not pre-seizure conduct, regardless of whether it is unreasonable or unjustified).
Likewise, the Eighth Circuit only scrutinizes the
seizure itself, and not the events leading up to the seizure. Cole v. Bone, 993 F.2d 1328, 1333 (8th Cir. 1993).
In Schulz v. Long, 44 F.3d 643 (8th Cir. 1995), the
Eighth Circuit rejected the plaintiff’s argument that
the officers’ conduct prior to the seizure caused the circumstances which ultimately led to the need to use
deadly force, as such an analysis violated Graham. Id.
at 648.
The Eleventh Circuit, in Menuel v. City of Atlanta,
relied upon the Seventh Circuit’s Plakas decision and
stated the time frame is a crucial aspect of excessive
force cases. Menuel, 25 F.3d at 997 (citations omitted).
Courts agree whether the suspect poses an immediate threat to the safety of officers or others is the
“most important” factor under Graham. See, e.g.,
Pauly v. White, 874 F.3d at 1215 (“undoubtedly the
most important” factor), and George v. Morris, 736

21
F.3d 829, 837 (9th Cir. 2013) (citations omitted). The
“reckless creation” theory, however, suggests this factor is of little or no import if the use of force could have
been avoided with better tactics or adherence to police
procedure.
As noted, the Tenth Circuit itself acknowledges its
“reckless creation” theory differs from how other circuits evaluate the reasonableness of an officer’s use of
force. Pauly, 874 F.3d at 1220 n.7. The Tenth Circuit,
however, understated the degree to which it is out of
step with other circuits. The “reckless creation” theory
(or its cousin, the “provocation” theory) has found traction only in the First, Ninth and Tenth Circuits. Young
v. City of Providence, 404 F.3d 4 (1st Cir. 2005); Pauly
v., 874 F.3d at 1220 n.7 (citing Sevier, 60 F.3d 695 and
Allen, 119 F.3d at 840); and Billington v. Smith, 292
F.3d 1177, 1189 (9th Cir. 2002), abrogated by Cty. of
Los Angeles, Calif. v. Mendez, 137 S.Ct. 1539 (2017).
This Court already addressed, and rejected, the
Ninth Circuit’s “provocation” rule in Mendez, 137 S.Ct.
1539 (2017).
The First Circuit articulates the rule in that circuit
is that, once it is clear that a seizure has occurred, “the
court should examine the actions of the government officials leading up to the seizure”; thus, an officer’s actions need not be examined solely at the moment of the
shooting. Young v. City of Providence, 404 F.3d at 22
(citations omitted).
Under the Tenth Circuit’s “reckless creation” theory, the reasonableness of the officers’ use of force depends not only on whether they believe they were in
danger at the time but also whether their “own reck-

22
less or deliberate conduct during the seizure unreasonably created the need to create such force,” Allen, 119
F. 3d at 840 (internal quotation marks omitted), provided that the conduct is “immediately connected” to
the threat of force, Medina v. Cram, 252 F.3d 1124,
1132 (10th Cir. 2001), and only actionable if it rises to
the level of recklessness. Sevier, 60 F. 3d at 699 n.7
(“mere negligent actions precipitating a confrontation
would not, of course, be actionable under §1983.”).
As shown, the Courts of Appeal are in conflict regarding the consideration of pre-seizure conduct when
measuring excessive force claims under the Fourth
Amendment. A clear majority of circuits do not consider pre-seizure conduct when analyzing the totality
of the circumstances regarding the reasonableness of
force by an officer because Graham dictates that the
reasonableness of a particular seizure/use of force
must be measured at the moment it occurs. This Court
again emphasized Graham’s statement that a claim of
excessive force was judged by “‘the same standard of
reasonableness at the moment … .’” Saucier v. Katz,
533 U.S. at 206–07 (quoting Graham, 490 U.S., at 396)
(emphasis added).
This Court noted but declined to resolve this very
issue in County of Los Angeles v. Mendez:
[Respondents] argue that the judgment below
should be affirmed under Graham itself. Graham commands that an officer’s use of force be
assessed for reasonableness under the “totality
of the circumstances.” 490 U.S., at 396 (internal
quotation marks omitted). On respondents’
view, that means taking into account unreasonable police conduct prior to the use of force that

23
foreseeably created the need to use it. [Citation
omitted.] We did not grant certiorari on that
question, and the decision below did not address
it. Accordingly, we decline to address it here.
137 S.Ct. at 1547 n.*. This important issue requires
resolution by this Court because identical pre-seizure
conduct may result in § 1983 liability in some circuits
but not others. This defeats the evenhanded, uniform
enforcement of the law and lends itself to confusion rather than uniform application of Fourth Amendment.
See, e.g., Collins v. Virginia, 138 S.Ct. 1663, 1675
(2018) (carveouts from the general rule lend themselves to confusion rather than uniform application of
the law); Ashcroft v. al-Kidd, 563 U.S. 731, 736 (2011)
(reasonableness under the Fourth Amendment is, predominantly, an objective inquiry that disregards subjective intent that promotes evenhanded, uniform enforcement of the law) (citations omitted); and Michigan v. Long, 463 U.S. 1032, 1040 (1983) (“it cannot be
doubted that there is an important need for uniformity
in federal law”).
The split among the circuits is clear, the Tenth Circuit is in the clear minority and this case presents an
appropriate vehicle to address and resolve the split.
3. The “reckless creation” theory puts the
lives of officers at risk and encourages
physical restraint of persons for fear an escalation of a police-citizen encounter will
result in the need to use force.
The “reckless creation” theory puts officers’ lives at
risk by holding them civilly responsible for an objectively reasonable use of force. As Graham acknowl-

24
edges, the Fourth Amendment’s reasonableness inquiry “must embody an allowance for the fact that police officers are often forced to make split-second judgments—in circumstances that are tense, uncertain,
and rapidly evolving—about the amount of force that
is necessary in a particular situation.” 490 U.S. at 397–
98.
The “reckless creation” theory encourages officers
to hesitate or even refrain from self-defense by adding
another layer to the split-second calculus officers are
expected to undertake to avoid being second-guessed
and subjected to liability in the later comfort of a
judge’s chambers or a courtroom. First, the officer
must, while under threat, decide whether and how to
defend against the threat. In the same split-second the
“reckless creation” theory then requires that the officer
assess whether he or she has done all that could be
done to avoid the need to use the particular force that
is, in the moment, warranted. This places the officer in
a conundrum where the officer correctly determines
that lethal force is necessary, but may result in liability because prior measures may have avoided the necessity.
The theory, as applied to the facts of this case, will
conversely encourage officers to “physically control”
subjects during police-citizen encounters. If liability
can be imposed here for refraining from handcuffing
the naked, intoxicated (and potentially suicidal) Ms.
Choate, officers are then encouraged to promptly
“physically control” persons they encounter to avoid
being second-guessed if the encounter later escalates
into one requiring the use of force.

25
This contravenes this Court’s instruction in Graham and virtually compels the officer to forever engage
in the very second-guessing Graham discourages. 490
U.S. at 396–97 (cautioning against analyzing officers’
conduct “in the peace of a judge’s chambers”). The reasonableness of a particular use of force “must be
judged from the perspective of a reasonable police officer on the scene, rather than the 20-20 vision of hindsight.” Id. at 396. “Determining whether the force used
to effect a particular seizure is ‘reasonable’ under the
Fourth Amendment requires a careful balancing of the
nature and quality of the intrusion on the individual’s
Fourth Amendment interests against the countervailing governmental interest at stake.” Id. (internal quotation marks omitted). The focus is on the facts confronting the officers, not “their underlying intent or
motivation.” Id. at 397. In analyzing the surrounding
facts and circumstances, courts must judge the officer’s actions from the perspective of a reasonable officer on the scene. Id. at 396–97.
The “reckless creation” theory allows § 1983 liability premised on actions which are reasonable from the
perspective of the officer in the moment but which may
have been avoided when analyzed at length with the
benefit of hindsight in the comfort of a courtroom or a
judge’s chambers.

26
B. Officers Huff and Mohney are entitled to
qualified immunity under the “reckless creation” theory unless every reasonable officer
would have known the officer’s pre-seizure
conduct would result in the need to use force
under the specific facts of the case.
An officer is entitled to qualified immunity in a
§ 1983 action where: (1) the facts do not show a violation of a constitutional right; or (2) the constitutional
right was not “clearly established” by law at the time
of the incident, such that “it would be clear to a reasonable officer that his conduct was unlawful in the
situation he confronted.” Saucier v. Katz, 533 U.S. 194,
201–02 (2001), receded from on other grounds by Pearson v. Callahan, 555 U.S. 223, 236 (2009).
In fact, qualified immunity may only be denied
where every reasonable officer would have acted differently. Reichle v. Howards, 132 S.Ct. 2088, 2093
(2012); see also Anderson v. Creighton, 483 U.S. 635,
641 (1987) (officer is entitled to qualified immunity if
a reasonable officer in his position could have believed
that his conduct was lawful). Whether a right is clearly
established is not determined as a broad proposition of
law, but is based upon the specific context of the particularized case and the circumstances facing the defendant. See Ashcroft v. al-Kidd, 563 U.S. at 742.
Under the Tenth Circuit’s “reckless creation” rule,
there are several components that must be satisfied
before the doctrine applies: (1) an officer must anticipate a violent escalation by a subject; (2) the encounter
must evolve to a point the officer must engage in a use
of force; and (3) the circumstances warranting the use

27
of force, though reasonable at the exact moment it occurs, were “recklessly created” by the officer such that
the entire encounter is unreasonable under the Fourth
Amendment.
The mental gymnastics to envision a circumstance
in which it would be clearly established so it would be
clear to every reasonable officer that a given action (or
inaction) during a police-citizen encounter will later
escalate to an avoidable use of force beggars the imagination. There is virtually no police-citizen encounter
that bears no possibility of escalating to the point warranting the use of force. The “reckless creation” theory
places the cart far before the horse because the theory
allows liability for avoidable uses of force as opposed
to unreasonable uses of force.
As applied here, Officers Huff and Mohney, under
the decisions below face liability under § 1983 not necessarily because their shooting of Ms. Choate was unreasonable at the moment but because a jury could
conclude the use of force could have been avoided had
either officer elected to “physically control” the naked
woman in her bed at the onset of the encounter.
Clearly established rights are not to be defined “at
a high level of generality.” White v. Pauly, 137 S.Ct.
548, 552 (2017). Rather, “the clearly established law
must be particularized to the facts of the case.” Id. The
cases relied upon as clearly established law regarding
the Tenth Circuit’s “reckless creation” rule are inapposite to the particular facts here. Both Allen and Sevier
involved situations in which officers aggressively
rushed to restrain armed, suicidal individuals,
prompting a response threatened the officers, and culminated in the use of deadly force in response to the

28
(arguably) avoidable escalation and deadly threats.
Pet. App. 14a (citing Allen, 119 F.3d at 840, and Sevier,
60 F.3d at 699). This case presents the opposite fact
pattern. Cases holding that precipitous action to restrain an armed, suicidal person can violate the law
lack the factual particularity necessary to clearly establish that refraining from precipitous action to restrain an armed, suicidal person will also clearly violate the law. The Tenth Circuit indirectly acknowledged this reality when holding Officer Breneman was
entitled to qualified immunity by virtue of the absence
of clearly established law applicable to his circumstances.
C.

Officer Breneman did not violate the Fourth
Amendment and judgment should be entered for him on that basis.

The undisputed facts demonstrate Officer Breneman did not violate Ms. Choate’s Fourth Amendment
rights. He neither seized Ms. Choate nor did he cause
her to be seized.
The Tenth Circuit did not reject the notion that Officer Breneman may have violated the Fourth Amendment by refraining from physically controlling Ms.
Choate by handcuffing or otherwise restraining her
upon his entry into her bedroom, thereby preventing
events from evolving into the eventual use of deadly
force by Officers Huff and Mohney. Rather, the court
simply observed no case was sufficiently similar to put
an officer in Officer Breneman’s position on notice his
particular conduct violated the Fourth Amendment in
the specific context of this case. Pet. App. 6a. The very
holding implies Officer Brenemen violated the Fourth
Amendment, but not in a circumstance where existing

29
cases placed the question of a constitutional violation
beyond debate. This implication brands Officer Breneman with an unwarranted stigma which can and
should be addressed and alleviated by this Court.
Conclusion
Based upon the foregoing, the Petition for Writ of
Certiorari should be granted.
Respectfully submitted,
David R. Cooper
Counsel of Record
Michael K. Seck
Andrew D. Holder
FISHER, PATTERSON, SAYLER
& SMITH, LLP
3550 SW 5th Street
Topeka, Kansas 66606
(785) 232-7761
dcooper@fisherpatterson.com
mseck@fisherpatteron.com
aholder@fisherpatterson.com
Date: November 12, 2019

Appendix

1a

Appendix A
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
MICHELE CHOATE, individually and on behalf
of the heirs and estate of Deanne Choate,
Plaintiff - Appellee,
v.
ROBERT HUFF; JUSTIN MOHNEY; JEFF
BRENEMAN,
Defendants - Appellants,
and
CITY OF GARDNER, KANSAS,
Defendant.
No. 18-3157
FILED July 18, 2019
Before BRISCOE, McKAY, and HOLMES, Circuit
Judges.
ORDER AND JUDGMENT*
Monroe G. McKay, Circuit Judge
In this interlocutory appeal, three police officers
challenge the district court’s denial of their motion for
summary judgment based on qualified immunity.

This order and judgment is not binding precedent, except
under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
*

2a
Because our jurisdiction in a qualified immunity interlocutory appeal is limited to purely legal issues, “we
‘take, as given, the facts that the district court assumed when it denied summary judgment.’ ” Morris v.
Noe, 672 F.3d 1185, 1189 (10th Cir. 2012) (quoting
Johnson v. Jones, 515 U.S. 304, 319, 115 S.Ct. 2151,
132 L.Ed.2d 238 (1995)); see also Lewis v. Tripp, 604
F.3d 1221, 1225 (10th Cir. 2010) (“[I]t is generally the
district court’s exclusive job to determine which facts
a jury could reasonably find from the evidence presented to it by the litigants.” (emphasis omitted)).
Here, the district court identified the following
facts that could be found by a jury: On March 26, 2015,
various police officers, including Defendants Robert
Huff, Justin Mohney, and Jeff Breneman, responded
to a 911 call at a Kansas residence shared by decedent
Deanne Choate and her boyfriend. The boyfriend had
made the 911 call and told the dispatcher that Ms.
Choate had been drinking, had fired a gun, and was
possibly suicidal. After arriving at the residence, the
officers removed the boyfriend from the house and located Ms. Choate in bed, apparently naked and intoxicated or groggy. The officers asked Ms. Choate about
the gun and issued various commands, including inviting her to produce the gun, which they (correctly) suspected was under the covers of her bed. The officers
opted against physically restraining her because she
was naked. After more than four minutes, during
which the officers repeatedly asked about the firearm,
Ms. Choate stated, “It’s right here.” Within a few seconds after she made this statement, Officer Huff and
Officer Mohney discharged their weapons, killing Ms.
Choate. A reasonable jury could disbelieve these officers’ testimony that Ms. Choate pointed a gun at them.

3a
Rather, the jury could find that Ms. Choate never removed her gun from under the covers of her bed and
the officers instead reacted to her statement about the
gun. Officer Breneman was the lead officer during the
incident and had the most contact with Ms. Choate
prior to the shooting, but he did not discharge his firearm or direct the other officers to discharge theirs.
This § 1983 action was brought by Ms. Choate’s
daughter against Officer Huff, Officer Mohney, Officer
Breneman, and the City of Gardner, Kansas. The only
claim at issue in this appeal is Plaintiff’s excessiveforce claim against the three officers. The officers
sought summary judgment based on qualified immunity, but the district court denied summary judgment as
to all three officers. This interlocutory appeal followed.
We first consider Officer Huff and Officer Mohney’s
challenge to the district court’s decision. These officers
argue that they are entitled to qualified immunity because they used reasonable force against a perceived
threat based on their reasonable belief that Ms. Choate was pointing a firearm at them. They contend that
“the ‘version of events’ the district court h[eld] a reasonable jury could credit ‘is blatantly contradicted by
the record’ ”—specifically, by the officers’ body camera
footage—permitting us to “assess the case based on
our own de novo view of which facts a reasonable jury
could accept as true.” Lewis, 604 F.3d at 1225–26
(quoting Scott v. Harris, 550 U.S. 372, 380, 127 S.Ct.
1769, 167 L.Ed.2d 686 (2007)). They further argue
that, despite the district court’s conclusion that there
is a dispute of fact as to whether Ms. Choate actually
pointed a gun at them, they can still establish based
on their undisputed testimony that they reasonably

4a
perceived her to be pointing a gun at them, thus entitling them to qualified immunity.
We have reviewed the footage from each officer’s
body camera. This footage is unclear and far from satisfying the blatant-contradiction standard for de novo
appellate review. As for the officers’ attempted parsing
of the question regarding whether Ms. Choate was or
could have been perceived to be pointing a firearm at
them, this is precisely the sort of fact-based argument
that we may not consider in an interlocutory appeal of
this nature. See Johnson, 515 U.S. at 316–20, 115 S.Ct.
2151. Officer Mohney and Officer Huff do not raise “
‘abstract’ legal questions” based on the facts identified
by the district court, Lewis, 604 F.3d at 1225 (quoting
Johnson, 515 U.S. at 317, 115 S.Ct. 2151) (emphasis
omitted), but rather ask us, in essence, “to canvass the
record” to resolve “factual controversies ... that, before
trial, may seem nebulous,” Johnson, 515 U.S. at 316–
17, 115 S.Ct. 2151. Because Officer Mohney and Officer Huff’s arguments on appeal are all premised on
factual allegations outside “the facts that the district
court ruled a reasonable jury could find,” Estate of
Booker v. Gomez, 745 F.3d 405, 409 (10th Cir. 2014)
(internal quotation marks omitted), we lack interlocutory jurisdiction over their appeal. See Ralston v. Cannon, 884 F.3d 1060, 1062 (10th Cir. 2018).
As to Officer Breneman, however, this appeal does
appropriately raise an “abstract legal question[ ]” as to
whether the facts identified by the district court “suffice to show a violation of law” that “was clearly established at the time of the alleged violation.” Lewis, 604
F.3d at 1225 (internal quotation marks and emphasis
omitted). Officer Breneman argues that, even under

5a
the facts identified by the district court, he did not violate clearly established law. According to these facts,
Officer Breneman was the lead officer on the scene and
had the most contact with Ms. Choate before she was
shot, but he did not use any force against her, nor did
he direct the other officers’ use of force against her. Officer Breneman contends that these facts are insufficient to establish a violation of clearly established law.
See, e.g., Novitsky v. City of Aurora, 491 F.3d 1244,
1254 (10th Cir. 2007) (holding that officer could not be
found liable for another officer’s use of excessive force
where he was present at the scene but did not assist or
direct the other officer’s actions).
Plaintiff contends that Officer Breneman may be
found liable on her excessive force claim precisely because he did not use any force: If he had appropriately
handcuffed or otherwise restrained Ms. Choate soon
after he entered the room, Plaintiff argues, then the
situation could have been de-escalated, preventing
events from evolving as they did. Plaintiff further argues that Officer Breneman may be held liable for the
other officers’ use of force because he also handled the
situation poorly by holding an assault rifle while
standing near Ms. Choate, demanding that she produce her gun, failing to inform her that they were
there to help her, and failing to ask her boyfriend more
questions about her mental state.
Plaintiff does not identify a single case in which
comparable conduct was found to constitute a constitutional violation. She cites to a case holding that law
enforcement officers could be found liable for failing to
intervene in other officers’ use of excessive force. See
Estate of Booker, 745 F.3d at 422. That case, however,
involved an ongoing assault that lasted over the course

6a
of some minutes, during which time the non-participatory officers could have intervened to prevent or stop
the assault. Id. at 422–23. Plaintiff cites to no cases in
which an officer was held liable for another officer’s
use of force where this use of force was sudden, unannounced, and short in duration. Indeed, in Fogarty v.
Gallegos, 523 F.3d 1147 (10th Cir. 2008), we cited approvingly to a Second Circuit case in which the court
held that a defendant had “no duty to intervene when
‘three blows were struck in such rapid succession that
[the defendant] had no realistic opportunity to attempt
to prevent them.’ ” Id. at 1164 (quoting O’Neill v.
Krzeminski, 839 F.2d 9, 11 (2d Cir. 1988)) (alteration
in original). The facts identified by the district court in
this case, even taken in the light most favorable to
Plaintiff, do not suggest that Officer Breneman could
have done anything to prevent the other officers’ short,
sudden use of force once it began. Cf. Estate of Booker,
745 F.3d at 422–23. Thus, Plaintiff’s citation to Estate
of Booker is inapposite.
Plaintiff also attempts to analogize to other cases
in which an officer allegedly created the situation in
which deadly force became necessary. See, e.g., Hastings v. Barnes, 252 F. App’x 197, 203 (10th Cir. 2007);
Allen v. Muskogee, 119 F.3d 837, 839–41 (10th Cir.
1997). However, none of these cases are sufficiently
similar to put an officer in Officer Breneman’s position
on notice of “the violative nature of [the] particular
conduct” that allegedly violated the Fourth Amendment in “the specific context of th[is] case.” Mullenix v.
Luna, ––– U.S. ––––, 136 S. Ct. 305, 308, 193 L.Ed.2d
255 (2015) (internal quotation marks omitted). Indeed,
to the extent the cases Plaintiff cites are similar to the
situation here, they weigh against a finding of liability.

7a
For instance, in Allen, we held that officers could be
found liable under the Fourth Amendment where they
failed to follow the “fundamental principle[ ] of maintaining a covered position and trying to communicate
with armed emotionally upset persons rather than approaching and physically attempting to disarm them.”
119 F.3d at 844. That case, suggesting that conversation is preferable to physical engagement with an emotionally upset and armed individual, cannot have put
reasonable officers on notice that they needed to handcuff or otherwise restrain Ms. Choate, rather than try
to communicate with her, to avoid violating her right
to be free from excessive force. Although Plaintiff also
contends that Allen stands for the proposition that officers must obtain more information before approaching an armed and suicidal individual, this proposition
is too generalized to support her specific argument
that Officer Breneman was on notice that it violated
Ms. Choate’s right to be free from excessive force to fail
to ask her boyfriend more questions about her mental
state, and the facts of Allen are too dissimilar to
demonstrate a violation of clearly established law. See
Kisela v. Hughes, ––– U.S. ––––, 138 S. Ct. 1148, 1152,
200 L.Ed.2d 449 (2018).
“Specificity is especially important in the Fourth
Amendment context, where the Court has recognized
that it is sometimes difficult for an officer to determine
how the relevant legal doctrine, here excessive force,
will apply to the factual situation the officer confronts.” Id. (internal quotation marks and brackets
omitted). Because “[u]se of excessive force is an area of
the law in which the result depends very much on the
facts of each case, ... police officers are entitled to qual-

8a
ified immunity unless existing precedent squarely governs the specific facts at issue.” Id. at 1153 (internal
quotation marks omitted). Plaintiff has not identified
any cases holding that an officer violates an individual’s constitutional right to be free from excessive force
simply by failing to restrain her or to engage in the
dialogue that a defense expert, with the benefit of
hindsight, believes might have prevented another officer’s subsequent unannounced use of force. As Plaintiff has not satisfied her “burden of identifying cases
that constitute clearly established law on these facts,”
Quinn v. Young, 780 F.3d 998, 1015 (10th Cir. 2015),
Officer Breneman is entitled to qualified immunity on
Plaintiff’s claim of excessive force against him.
We REVERSE the district court’s denial of qualified immunity as to Officer Breneman and REMAND
with instructions for the district court to enter judgment in favor of Officer Breneman on Plaintiff’s claim
of excessive force. The remainder of this appeal is DISMISSED for lack of interlocutory jurisdiction.

9a

Appendix B
MICHELE CHOATE, individually and on behalf
of the heirs and estate of Deanne Choate,
Plaintiff - Appellee,
v.
CITY OF GARDNER, KANSAS; ROBERT HUFF;
JUSTIN MOHNY; AND JEFF BRENEMAN,
Defendants.
Case No. 16-2118-JWL
Signed 07/12/2018
MEMORANDUM AND ORDER
John W. Lungstrum, United States District Judge
This matter comes before the Court on defendants’
motion for summary judgment (Doc. # 164). For the
reasons set forth below, the motion is granted in part
and denied in part. The motion is granted with respect to plaintiff’s claim against defendant City based
on a failure to provide medical training and plaintiff’s
claim against the City for punitive damages. The motion is otherwise denied.
I. Background
On March 26, 2015, various police officers for the
City of Gardner, Kansas, including Officers Robert
Huff, Justin Mohny, and Jeff Breneman, responded to
a 911 call from the Gardner residence shared by decedent Deanne Choate and her boyfriend. The boyfriend
had made the 911 call and told the dispatcher that decedent had been drinking, had fired a gun, and was
possibly suicidal. After arriving at the residence, the

10a
officers removed the boyfriend from the house and located decedent in bed, apparently naked. After several
minutes, in which officers repeatedly asked about decedent’s firearm, decedent stated “it’s right here,” and
within a few seconds, Officer Mohny and Officer Huff
discharged their weapons, killing decedent.
Plaintiff, the daughter of decedent, brings this action on behalf of decedent’s heirs and estate. Plaintiff
asserts claims against the City of Gardner and Officers
Huff, Mohny, and Breneman pursuant to 42 U.S.C. §
1983, based on alleged violations of the Fourth Amendment. Plaintiff also asserts wrongful death claims under Kansas law.
II. Summary Judgment Standard
Summary judgment is appropriate if the moving
party demonstrates that there is “no genuine dispute
as to any material fact” and that it is “entitled to a
judgment as a matter of law.” Fed. R. Civ. P. 56(a). In
applying this standard, the court views the evidence
and all reasonable inferences therefrom in the light
most favorable to the nonmoving party. Burke v. Utah
Transit Auth. & Local 382, 462 F.3d 1253, 1258 (10th
Cir. 2006). An issue of fact is “genuine” if “the evidence
allows a reasonable jury to resolve the issue either
way.” Haynes v. Level 3 Communications, LLC, 456
F.3d 1215, 1219 (10th Cir. 2006). A fact is “material”
when “it is essential to the proper disposition of the
claim.” Id.
The moving party bears the initial burden of
demonstrating an absence of a genuine issue of material fact and entitlement to judgment as a matter of
law. Thom v. Bristol-Myers Squibb Co., 353 F.3d 848,
851 (10th Cir. 2003) (citing Celotex Corp. v. Catrett,

11a
477 U.S. 317, 322-23 (1986) ). In attempting to meet
that standard, a movant that does not bear the ultimate burden of persuasion at trial need not negate the
other party’s claim; rather, the movant need simply
point out to the court a lack of evidence for the other
party on an essential element of that party’s claim. Id.
(citing Celotex, 477 U.S. at 325).
If the movant carries this initial burden, the nonmovant may not simply rest upon the pleadings but
must “bring forward specific facts showing a genuine
issue for trial as to those dispositive matters for which
he or she carries the burden of proof.” Garrison v.
Gambro, Inc., 428 F.3d 933, 935 (10th Cir. 2005). To
accomplish this, sufficient evidence pertinent to the
material issue “must be identified by reference to an
affidavit, a deposition transcript, or a specific exhibit
incorporated therein.” Diaz v. Paul J. Kennedy Law
Firm, 289 F.3d 671, 675 (10th Cir. 2002).
Finally, the court notes that summary judgment is
not a “disfavored procedural shortcut;” rather, it is an
important procedure “designed to secure the just,
speedy and inexpensive determination of every action.” Celotex, 477 U.S. at 327 (quoting Fed. R. Civ. P.
1).
III. Fourth Amendment Claims Against Individual Defendants
As the basis for her claims under Section 1983
against the individual defendants, plaintiff alleges
that Officers Huff, Mohny, and Breneman used excessive force against decedent in violation of the Fourth
Amendment. To overcome the defense of qualified immunity, a plaintiff asserting a claim under Section

12a
1983 must show a violation of a constitutional or statutory right and that the right was clearly established
when the alleged violation occurred. See Olsen v. Layton Hills Mall, 312 F.3d 1304, 1312 (10th Cir. 2002).
As the Court noted at the pleading stage in this case,
the Tenth Circuit has explained the applicable inquiry
for an excessive force claim as follows:
A police officer violates an arrestee’s clearly established Fourth Amendment right to be free of
excessive force during an arrest if the officer’s
arresting actions were not “objectively reasonable” in light of the facts and circumstances confronting him. This court assesses the reasonableness of an officer’s conduct from the perspective of a reasonable officer on the scene, acknowledging that the officer may be forced to
make split-second judgments in certain difficult
circumstances. This reasonableness standard—
which is “clearly established” for the purposes of
§ 1983 actions—implores the court to consider
factors including the alleged crime’s severity,
the degree of potential threat that the suspect
poses to an officer’s safety and to others’ safety,
and the suspect’s efforts to resist or evade arrest. Because the reasonableness inquiry overlaps with the qualified immunity analysis, a
qualified immunity defense is of less value when
raised in defense of an excessive force claim.
Whether an officer acted reasonably in using
deadly force is heavily fact dependent.
See id. at 1313-14 (internal quotations and citations
omitted). Thus, the Court considers whether a question of fact remains concerning whether the officers

13a
acted reasonably in this case in using force against decedent.
Defendants argue that the officers acted reasonably as a matter of law at the time they fired on decedent. Defendants rely on the deposition testimony of
Officer Mohny and Officer Huff, each of whom testified
that he observed decedent pointing a gun at Officer
Mohny. Plaintiff does not argue that it would have
been unreasonable (at that particular moment) for the
officers to fire on a person pointing a gun at them.
Plaintiff argues, however, and the Court agrees, that
a question of fact remains concerning whether decedent did point a gun at any of the officers. Defendants
argue that the only testimony on that issue comes from
Officers Mohny and Huff, but the jury is free to reject
such testimony, and other evidence contraverts that
testimony. For instance, the video recordings from the
body cameras of Officers Mohny, Huff, and Breneman
do not show decedent pointing a gun. Moreover, Officer
Breneman testified that he did not see any weapon,
even though he was only a couple of feet away from
decedent when the shooting started, and that as he
wrestled briefly with decedent, he felt what he believed to be a weapon under the covers of the bed. In
addition, after the shooting, decedent’s weapon was
found under the covers by her knee. Such evidence,
viewed in the light most favorable to plaintiff, supports
the allegation that decedent did not in fact remove her
gun from under the covers (and that the officers may
have instead reacted, for instance, to decedent’s statement about the gun). Finally, the officers’ testimony
about seeing the gun contains inconsistencies, for example concerning the positioning of decedent’s hands
and whether she held the gun with one hand or two,

14a
and those inconsistencies, viewed in plaintiff’s favor,
further undermine the officers’ testimony about seeing
decedent pointing a gun. Because a question of fact remains concerning whether decedent pointed a gun at
the officers, the Court cannot conclude as a matter of
law that, at the time of the shooting, Officers Mohny
and Huff acted reasonably in firing on decedent.
In addition, as the Court discussed at the pleading
stage, “[t]he excessive force inquiry includes not only
the officers’ actions at the moment that the threat is
presented, but also may include their actions in the
moments leading up to the suspect’s threat of force.”
See Allen v. Muskogee, Okla., 119 F.3d 837, 840 (10th
Cir. 1997). “The reasonableness of [the officers’] actions depends both on whether the officers were in
danger at the precise moment that they used force and
on whether [the officers’] own reckless or deliberate
conduct during the seizure unreasonably created the
need to use such force.” See Sevier v. City of Lawrence,
Kan., 60 F.3d 695, 699 (10th Cir. 1995) (footnote and
citations omitted). A court thus considers “an officer’s
conduct prior to the suspect’s threat of force if the conduct is ‘immediately connected’ to the suspect’s threat
of force.” See Allen, 119 F.3d at 840 (citations omitted).
In the present case, plaintiff alleges that, even if
the officers acted reasonably at the exact moment of
the shooting, they recklessly created their need to use
force and thus acted unreasonably in the totality of the
circumstances. Specifically, plaintiff argues that the
officers should have taken physical control of decedent
while she sat in bed with her empty hands above the
covers, before she produced any gun. Defendants argue
that the officers were not reckless as a matter of law,

15a
but the Court rejects that argument. Plaintiff has submitted the following evidence in support of her argument that defendants should have controlled decedent
prior to the shooting: the officers were in the bedroom
with decedent for over four minutes before the shooting occurred, during which time they made no attempt
to restrain her or to remove her from the bed; the officers had been informed that decedent was intoxicated,
was possibly suicidal, and had recently fired a gun; decedent appeared intoxicated or groggy, and she continually failed to respond verbally or physically to repeated questions and commands; Officer Mohny testified that he suspected that decedent had a gun under
the covers, and Officer Breneman was worried that she
had a gun there; Officer Breneman, who acted as lead
officer during the incident and had the most contact
with decedent in the bedroom, admitted that he had
multiple opportunities to take physical control of decedent; the officers did not merely ask decedent for the
location of her gun but actually invited decedent to
produce the gun; and the officers declined to restrain
decedent not because of any safety concerns, but rather because decedent was apparently naked. Viewed
in the light most favorable to plaintiff, this evidence
shows that the officers failed to restrain decedent (or
at least her hands), even though she had a gun under
the covers, despite the fact that her obvious impairment increased the likelihood that she would act erratically, including producing the gun as requested. In addition, the City’s policies demanded that the officers
control the situation they encountered first and foremost, and plaintiff’s expert witnesses opined that the
officers should have physically restrained decedent
under these circumstances. Based on this evidence, a

16a
jury could reasonably find that defendant officers
acted recklessly immediately prior to the shooting and
that such conduct created any eventual need to use
force against decedent.1
The Court also rejects defendants’ argument that
they are entitled to immunity because the law prohibiting their conduct was not clearly established. As
noted above, the Tenth Circuit has stated that the requirement that officers’ use of force be reasonable is
clearly established. The Tenth Circuit has also made
clear that an officer may be liable if his reckless conduct creates the need to use force.
Finally, defendants argue that Officer Breneman
cannot be liable because he did not fire upon decedent.
Plaintiff alleges, however, that Officer Breneman’s
reckless conduct created the need for the other individual defendants to use force, and thus plaintiff has alleged Officer Breneman’s personal participation in a
constitutional violation. Defendants have not addressed his possible liability in the context of plaintiff’s
reckless-creation theory (defendants did not address
this issue in their reply brief), nor have defendants
provided any authority to suggest that an officer must
have fired the fateful shot in order to be liable for the
use of excessive force. Accordingly, the Court denies
each individual defendant’s motion for summary judgment on plaintiff’s claim under Section 1983.
IV. Fourth Amendment Claims Against Defendant City of Gardner

To be clear, this Court does not find that the officers acted
recklessly or unreasonably; rather, the Court merely concludes
that a question of fact remains for the jury to decide.
1

17a
A. Encounters With Mentally Ill or Suicidal Persons
Plaintiff also asserts her Section 1983 claim
against defendant City of Gardner. To prevail on such
a claim against a city, a plaintiff must show that a municipal policy or custom caused a constitutional deprivation. See City of Canton, Ohio v. Harris, 489 U.S.
378, 385 (1989). Under that standard, “the inadequacy
of police training may serve as the basis for § 1983 liability only where the failure to train amounts to deliberate indifference to the rights of persons with whom
the police come into contact.” See id. at 388 (footnote
omitted). The Supreme Court elaborated on that rule
as follows:
The issue in a case like this one, however, is
whether that training program is adequate; and
if it is not, the question becomes whether such
inadequate training can justifiably be said to
represent “city policy.” It may seem contrary to
common sense to assert that a municipality will
actually have a policy of not taking reasonable
steps to train its employees. But it may happen
that in light of the duties assigned to specific officers or employees the need for more or different training is so obvious, and the inadequacy
so likely to result in the violation of constitutional rights, that the policymakers of the city
can reasonably be said to have been deliberately
indifferent to the need. In that event, the failure
to provide proper training may fairly be said to
represent a policy for which the city is responsible, and for which the city may be held liable if
it actually causes injury.

18a
See id. at 390 (footnotes omitted). The Tenth Circuit has identified the applicable elements of such a
claim:
To establish a city’s liability under 42 U.S.C. §
1983 for inadequate training of police officers in
the use of force, a plaintiff must show (1) the officers exceeded constitutional limitations on the
use of force; (2) the use of force arose under circumstances that constitute a usual and recurring situation with which police officers must
deal; (3) the inadequate training demonstrates
a deliberate indifference on the part of the city
toward persons with whom the police officers
come into contact; and (4) there is a direct
causal link between the constitutional deprivation and the inadequate training.
See Allen, 119 F.3d at 841-42 (citations omitted).
In the present case, plaintiff alleges a city policy or
custom, including a failure to train, regarding encounters with mentally ill or suicidal persons. Plaintiff relies heavily on the Tenth Circuit’s opinion in Allen. In
that case, the court considered the four elements and
concluded that the plaintiff had made a submissible
case against the defendant city, sufficient to withstand
summary judgment, with respect to her claim based on
a failure to train regarding encounters with mentally
disturbed persons. See id. at 842-45. First, the Court
found that a question of fact existed concerning
whether the officers used excessive force in violation of
the Constitution. See id. at 842. Second, the Court
cited evidence presented by plaintiff that “it was common for officers to have to deal with mentally ill or

19a
emotionally disturbed people and people under the influence of drugs or alcohol,” and it further stated that
it is not uncommon “for officers to have to deal with
persons armed with deadly weapons;” thus, the court
concluded that “there was evidence that the use of
force arose under circumstances that constituted a
usual and recurring situation with which police officers must deal.” See id. Third, the court concluded that
the plaintiff had submitted evidence, including from
an expert, that the officers’ training had been inadequate, and that such evidence, viewed in the plaintiff’s
favor, was “sufficient to support an inference that the
need for different training was so obvious and the inadequacy so likely to result in violation of constitutional rights that the policymakers of the City could
reasonably be said to have been deliberately indifferent to the need.” See id. at 844 (footnote omitted). Finally, the court concluded that there was sufficient evidence that the inadequate training caused the deprivation in that case. See id.
The Court concludes that the same result is warranted in the present case. As discussed above, a question of fact remains concerning whether the officers violated decedent’s constitutional right by using excessive force. Plaintiff has submitted evidence that the
City receives over 70 suicide call per year on average;
thus, plaintiff has submitted evidence that encountering suicidal and other mentally disturbed persons represents a recurring situation with which police officers
must deal. Plaintiff has also submitted evidence that
the City’s training with respect to such persons was
inadequate. Indeed, viewed in the light most favorable
to plaintiff, the evidence shows that the City’s officers

20a
effectively were not required to undergo any specialized training in how to handle such persons. Only a
small percentage of the City’s officers had received Crisis Intervention Training (CIT), and the City did not
ensure that each shift included at least one officer so
trained. Plaintiff also submitted expert opinion that
the City’s training was inadequate, and as in Allen, it
is apparent that inadequate training in handling erratic and armed persons could easily lead to an unreasonable use of force. Finally, there is sufficient evidence of causation here. Plaintiff’s experts opined that
the officers failed to comply with any proper training
when they failed to control decedent, who was obviously impaired, probably armed, and possibly suicidal.
Moreover, although Officer Mohny was CIT-certified,
it is does not appear that he took any concrete steps
(such as reassuring decedent) pursuant to such training.
Defendants rely heavily on the fact that, prior to
this shooting, there had never been an instance in
which deadly force was used by the City’s officers
against a suicidal or mentally disturbed person. In Allen, however, the Tenth Circuit stressed that “a single
violation of federal rights may be a highly predictable
consequence of a failure to train officers to handle recurring situations with an obvious potential for such a
violation.” See id. at 845. “A plaintiff can properly rely
on the single incident if there is other evidence of inadequate training.” See id. In this case, plaintiff does
not rely solely on the fact of the shooting of decedent,
but has submitted additional evidence that the City
did not properly train its officers regarding the use of
force against suicidal or mentally disturbed persons.
Accordingly, because plaintiff has submitted evidence

21a
to satisfy each of the required elements, the Court concludes that a jury could reasonably find that the City
acted with deliberate indifference. The Court therefore
denies the motion for summary judgment on plaintiff’s
claim against the City under Section 1983 based on
training with respect to suicidal or mentally ill persons.
B. Provision of Medical Treatment
Plaintiff also asserts a claim against the City based
on the City’s alleged failure to train or supervise its
officers regarding the provision of medical treatment
following a shooting. Plaintiff has not provided any evidence, however, that any such failure caused any
harm in this case. Specifically, both sides’ experts
agree that nothing could have been done to help decedent after she was shot. Indeed, plaintiff’s expert conceded that decedent could not have been saved even if
the shooting had occurred in a hospital emergency
room.2 Accordingly, plaintiff has failed to provide any
evidence of causation from the alleged failure to train,
and the Court therefore grants summary judgment in
favor of defendants on this claim.
C. Punitive Damages
Defendants seeks summary judgment on plaintiff’s
claim for punitive damages against the City. Plaintiff
does not dispute that such damages are not available
against that defendant. See City of Newport v. Fact
Concerts, Inc., 453 U.S. 247, 271 (1981) (municipalities
are immune from punitive damages under Section
1983). Instead, plaintiff argues in response only that
Plaintiff’s brief does not address this argument based on a
lack of causation.
2

22a
she may seek such damages from the individual defendants. Accordingly, the Court grants summary
judgment in favor of the City on plaintiff’s claim for
punitive damages.
V. Wrongful Death Claims
Defendants also seek summary judgment on plaintiff’s state-law wrongful death claims. The Court rejects each of defendants’ arguments, however, and it
therefore denies summary judgment on the state-law
claims.
First, defendants argue that the Court should not
exercise supplemental jurisdiction over these claims
once the federal claims have been dismissed. Because
the federal claims survive, however, the Court denies
this request.
Second, defendants argue that this claim may not
be asserted against Officer Breneman because he did
not shoot decedent. Defendants have not cited any authority, however, to suggest that a claim may not nonetheless be maintained in such circumstances. As discussed above, plaintiff has alleged and provided evidence that Officer Breneman’s actions caused the
other officers’ use of force and thus caused the harm to
decedent. The Court therefore rejects this argument
for summary judgment in favor of Officer Breneman.
Third, defendants argue that they are shielded
from liability by Kan. Stat. Ann. § 21-5227(a), which
provides that a law enforcement officer is justified in
using deadly force if the officer reasonably believes
that such force is necessary to defend himself or another from bodily harm. See id.; see also Dauffenbach
v. City of Wichita, 233 Kan. 1028, 1036-37 (1983) (civil
liability of officer is coextensive with criminal liability

23a
under this statute).3 Defendants argue that the officers acted reasonably in shooting decedent as a matter
of law. As concluded above, however, the reasonableness of defendants’ actions remains a question of fact
for the jury. Therefore, the Court rejects this argument
for summary judgment.
Fourth, defendants argue that they are protected
from liability by the discretionary function exception
to the Kansas Tort Claims Act, Kan. Stat. Ann. § 756104(e), which provides that a government entity or its
employee shall not be liable with respect to any claim
“based upon the exercise or performance or the failure
to exercise or perform a discretionary function or duty
..., whether or not the discretion is abused and regardless of the level of discretion involved.” See id. Defendants concede that this exception “would not shield
them from liability to the extent that their use of force
was excessive,” see Sevier v. City of Lawrence, 853 F.
Supp. 1360, 1370 (D. Kan. 1994) (citing Caplinger v.
Carter, 9 Kan. App. 2d 287 (1984) ), appeal dismissed,
60 F.3d 695 (10th Cir. 1995); but they argue that it
does bar plaintiff’s wrongful death claim because that
claim is based on negligence only. See id. (granting
summary judgment on wrongful death claim to the extent predicated on negligence).
The Court has previously rejected this argument.
See Clark v. Thomas, 505 F. Supp. 2d 884, 894 (D. Kan.
2007) (Lungstrum, J.). As preserved in the pretrial order, plaintiff’s wrongful death claims are based an al-

In their brief, defendants cite Kan. Stat. Ann. § 21-3215.
That statute, however, has been repealed and replaced with Section 21-5227.
3

24a
legation of excessive force, and the discretionary function exception does not apply to such a claim. See id.;
see also Caplinger, 9 Kan. App. 2d at 295 (Kansas law
imposes a duty not to use unreasonable force, and the
intentional use of such force is not a discretionary
function). Accordingly, the Court rejects this argument
for summary judgment.
Fifth, defendants seek summary judgment on
plaintiff’s survival claim. With respect to such a claim,
“Kansas follows the majority rule that damages are recoverable only for pain and suffering consciously experienced” by the decedent before death. See Nelson v.
Acosta-Corrales, 2014 WL 1048007, at *3 (D. Kan.
Mar. 18, 2014) (citing Gregory v. Carey, 246 Kan. 504,
509 (1990) ). In this case, at least one officer heard
moaning by decedent after she was shot, and plaintiff’s
expert testified in his deposition that decedent did experience conscious pain and suffering prior to death.
Defendants argue that such evidence is not sufficient
because the expert did not testify that decedent was
responding to particular stimuli. Defendants rely on
Nelson, in which the court, after reviewing Kansas
law, concluded that evidence of moaning was not sufficient by itself without evidence that the moaning was
in response to stimuli. See id. In this case, however,
plaintiff does not rely solely on evidence of moaning;
she has also provided evidence from an expert who testified unequivocally that decedent did experience conscious pain and suffering. That evidence is sufficient
to create a question of fact for the jury on this point,

25a
and the Court therefore denies the motion for summary judgment on the survival claim.4
IT IS THEREFORE ORDERED BY THE COURT
THAT defendants’ motion for summary judgment
(Doc. # 164) is hereby granted in part and denied
in part. The motion is granted with respect to plaintiff’s claim against defendant City based on a failure to
provide medical training and plaintiff’s claim against
the City for punitive damages. The motion is otherwise
denied.
IT IS SO ORDERED.

Defendants appear to question the basis for this opinion by
plaintiff’s expert, but they have not filed a motion to exclude that
opinion under Daubert.
4

26a

Appendix C
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
MICHELE CHOATE, individually and on behalf of the
heirs and estate of Deanne Choate, Plaintiff - Appellee,
v.
ROBERT HUFF, et al., Defendants - Appellants, and
CITY OF GARDNER, KANSAS, Defendant.
No. 18-3157
FILED August 14, 2019
ORDER
Before BRISCOE, McKAY, and HOLMES, Circuit
Judges.
Appellants’ petition for rehearing is denied.
The petition for rehearing en banc was transmitted
to all of the judges of the court who are in regular active service. As no member of the panel and no judge
in regular active service on the court requested that
the court be polled, that petition is also denied.
Entered for the Court
ELISABETH A. SHUMAKER, Clerk

